 FEDERAL ELECTION COMMISSION 


  OFFICE OF INSPECTOR GENERAL 





            FINAL REPORT 


Audit of the Federal Election Commission’s 

  Fiscal Year 2007 Financial Statements 





             November 2007 


        ASSIGNMENT No. OIG-07-01 

                           Table of Contents

Transmittal Memorandum


Independent Auditor’s Report……………………………………………………………1

Independent Auditor’s Report on Compliance and Other Matters.………………………3

Independent Auditor’s Report on Internal Control… ……………………………………4
costs in its statement of net cost, the present opinion on the FY 2006 financial statements
is different from that expressed in the previous report.

Report on Internal Control
CG-LLP's planning and performance of the audit included consideration of the FEC's
internal control over financial reporting as a basis for designing audit procedures for the
purpose of expressing an opinion on the financial statements and to comply with OMB
Bulletin 07-04. The auditors did not test all internal controls relevant to operating
effectiveness, such as those controls relevant to ensuring efficient operations, and
consequently CG-LLP did not express an opinion on the agency's internal control over
financial reporting.

The American Institute of Certified Public Accountants (AICPA) established standards
on communicating deficiencies related to an entity's internal control over financial
reporting identified by the auditors. As defined by the AICPA, a control deficiency exists
when the design or operation of a control does not allow the agency's management or its
employees, in the normal course of performing their assigned duties, to prevent or detect
misstatements on a timely basis.

Auditors determine whether an internal control deficiency is a significant deficiency or a
material weakness based on the factors of likelihood and magnitude. A significant
deficiency is a control deficiency, or combination of control deficiencies, that adversely
affect the agency's ability to initiate, authorize, record, process, or report financial data
reliability in accordance with generally accepted accounting principles such that there is
more than a remote likelihood that a misstatement of the agency's financial statements
that is more than inconsequential will not be prevented or detected by the agency's
internal control. A material weakness is a significant deficiency, or combination of
significant deficiencies, that results in more than a remote likelihood that a material
misstatement of the financial statements will not be prevented or detected by the agency's
internal controls.

CG-LLP identified a significant deficiency in the area of:
                 Information Technology (IT)

CG-LLP identified a material weakness in the area of:
                 Integrated Financial Management System

Report on Compliance and Other Matters
FEC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether the FEC's financial
statements are free of material misstatements, CG-LLP performed tests of compliance
with certain provisions of laws and regulations, non-compliance with which could have a
direct and material effect on the determination of financial statement amounts, and
certain laws and regulations specified in OMB Bulletin No. 07-04, such as the Anti-
Deficiency Act and the Prompt Payment Act.
The results of CG-LLP's tests of compliance with laws and regulations described in the
audit report disclosed no instances of noncompliance with the laws and regulations that
are required to be reported under Government Auditing Standards and ONIB Bulletin No.
07-04.

Audit Follow-up
The report on internal control contains recommendations to address weaknesses found by
the auditors. Management was provided a draft copy of the audit report for comment and
generally concurred with the findings and recommendations. In accordance with OMB
Circular No. A-50, Audit Followup, revised, the FEC's corrective action plan is to set
forth the specific action planned to implement the recommendations and the schedule for
implementation. The Commission has designated the Chef Financial Officer to be the
audit follow-up official for the financial statement audit.

OIG Evaluation of Clifton Gunderson LLP's Audit Performance
In connection with the OIG's contract with CG-LLP, we reviewed CG-LLP's report and
related documentation and inquired of its representatives. The OIG's review, as
differentiated from an audit in accordance with U.S. generally accepted government
auditing standards (GAGAS), was not intended to enable us to express, and we do not
express, opinions on the FEC's financial statements or internal control or on the FEC's
compliance with laws and regulations. CG LLP is responsible for the attached auditor's
report and the conclusions expressed in the report. However, the OIG review disclosed no
instances where CG-LLP did not comply, in all material respects, with GAGAS.

We appreciate the courtesies and cooperation extended to Clifton Gunderson LLP and the
OIG staff during the audit. If you should have any questions concerning these reports,
please contact my office on (202) 694-10 15.




                                                   ~    p A. McFarland
                                                             ~ k
                                                   Inspector General

Attachments

Cc:    Chief Financial Officer
       Staff Director
       General Counsel
       Chief Information Officer
       Accounting Officer
                                    Independent Auditor’s Report


To the Inspector General of the
 Federal Election Commission


We have audited the balance sheets of the Federal Election Commission (FEC) as of
September 30, 2007 (FY 2007) and 2006 (FY 2006), and the related statements of net cost,
changes in net position, budgetary resources, and custodial activity for the years then ended
(hereinafter collectively referred to as the “financial statements”). These financial statements are
the responsibility of the FEC’s management. Our responsibility is to express an opinion on these
financial statements based on our audits

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and applicable provisions of
Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal
Financial Statements. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial
statements’ presentation. We believe our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of the FEC as of September 30, 2007 and 2006, and its net cost, changes in
net position, budgetary resources, and custodial activity for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

In our report dated November 7, 2006, we expressed a qualified opinion on the FY 2006
statement of net cost because we were not able to obtain sufficient competent audit evidence to
support the allocation of program costs. As described in Note 1, FEC has changed the
presentation of program costs in its statement of net cost. Accordingly, our present opinion on
the FY 2006 financial statements, as presented herein, is different from that expressed in our
previous report.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 13, 2007 on our consideration of the FEC’s internal control over financial reporting,
and on our tests of the FEC’s compliance with certain provisions of laws and regulations and
other matters. The purpose of those reports is to describe the scope of our testing of internal


11710 Beltsville Drive, Suite 300
Calverton, Maryland 20705-3106
tel: 301-931-2050                                  1 of 20
fax: 301-931-1710
                                     Offices in 17 states and Washington, DC
www.cliftoncpa.com
control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are
an integral part of our audit performed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.

The information in the Management Discussion and Analysis section is not a required part of the
consolidated financial statements, but is supplementary information required by U.S. generally
accepted accounting principles and OMB Circular No. A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of
inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion
on it.

Our audits were conducted for the purpose of forming an opinion on the consolidated financial
statements taken as a whole. The information in the Message from The Chairman, Performance
Section, and Other Accompanying Information is presented for purposes of additional analysis
and is not required as part of the consolidated financial statements. This information has not
been subjected to auditing procedures and, accordingly, we express no opinion on it.




Calverton, Maryland 

November 13, 2007





                                             2 of 20
                   Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the
 Federal Election Commission

We have audited the financial statements of the Federal Election Commission (FEC) as of, and
for the year ended September 30, 2007, and have issued our report thereon dated
November 13, 2007. We conducted our audit in accordance with the auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and, applicable provisions of Office of Management and Budget (OMB) Bulletin 07-04,
Audit Requirements for Federal Financial Statements.

The management of FEC is responsible for complying with laws and regulations applicable to
FEC. As part of obtaining reasonable assurance about whether FEC’s financial statements are
free of material misstatements, we performed tests of FEC’s compliance with certain provisions
of laws and regulations, non-compliance with which could have a direct and material effect on
the determination of financial statement amounts and certain other laws and regulations specified
in OMB Bulletin 07-04. We limited our tests of compliance to these provisions and we did not
test compliance with all laws and regulations applicable to FEC. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit,
and, accordingly, we do not express such an opinion.

The results of our tests of compliance with laws and regulations described in the preceding
paragraph disclosed no instances of reportable noncompliance or other matters that are required
to be reported under U.S. generally accepted Government Auditing Standards or OMB Bulletin
No. 07-04.

This report is intended solely for the information and use of the management of FEC, FEC
Office of Inspector General, Government Accountability Office, OMB and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




Calverton, Maryland 

November 13, 2007 




11710 Beltsville Drive, Suite 300
Calverton, Maryland 20705-3106                    3 of 20
tel: 301-931-2050
fax: 301-931-1710
                                    Offices in 17 states and Washington, DC
www.cliftoncpa.com
                                Independent Auditor’s Report on Internal Control


To the Inspector General of the
   Federal Election Commission

We have audited the financial statements of the Federal Election Commission (FEC) as of and
for the year ended September 30, 2007 and have issued our report thereon dated
November 13, 2007. We conducted our audit in accordance with the auditing standards
generally accepted in the United States of America; the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and, applicable provisions of Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered FEC’s internal control over financial
reporting as a basis for designing our audit procedures for the purpose of expressing our opinion
on the financial statements and to comply with OMB Bulletin 07-04, but not for the purpose of
expressing an opinion on the effectiveness of FEC’s internal control over financial reporting.
We did not test all internal controls relevant to operating effectiveness as broadly defined by the
Federal Managers’ Financial Integrity Act (FMFIA) (31 U.S.C. 3512), such as those controls
relevant to ensuring efficient operations. Accordingly, we do not express an opinion on the
effectiveness of FEC’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraph and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. As discussed below, we identified certain deficiencies in internal control over
financial reporting that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affect the entity’s ability to initiate, authorize, record,
process, or report financial data reliability in accordance with generally accepted accounting
principles such that there is more than a remote likelihood that a misstatement of the entity’s
financial statements that is more than inconsequential will not be prevented or detected by the
entity’s internal control.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal controls.

11710 Beltsville Drive, Suite 300
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710                                    Page 4 of 20
www.cliftoncpa.com                          Offices in 17 states and Washington, DC
Our consideration of the internal control over financial reporting was for the limited purpose
described in the second paragraph of this section and would not necessarily identify all
deficiencies in the internal control that might be significant deficiencies and, accordingly, would
not necessarily disclose all significant deficiencies that are also considered to be material
weakness. However, we believe that the significant deficiency in Integrated Financial
Management System described below is a material weakness.

Finally, with respect to internal control related to performance measures reported in the FEC’s
Performance and Accountability Report as of September 30, 2007, we obtained an understanding
of the design of significant internal controls relating to the existence and completeness
assertions, as required by OMB Bulletin 07-04. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and, accordingly, we do not
provide an opinion on such controls.

                          *************************************

MATERIAL WEAKNESS

I.   Integrated Financial Management System (Modified Repeat Finding)

     A single, integrated financial management system is a unified set of financial systems
     linked together electronically in an efficient and effective manner to provide agency-wide
     financial management support. An integrated system should maintain an interrelationship
     between software, hardware, personnel, procedures, controls and data contained within the
     systems which allows users to obtain necessary information efficiently and effectively
     through electronic means. It does not necessarily mean having only one software
     application covering all financial management needs within an agency. Interfaces are
     acceptable as long as the supporting details are maintained and accessible to managers.
     Interface linkages must be electronic unless the number of transactions is so small that it is
     not cost beneficial to automate the interface. Easy reconciliation between systems, where
     interface linkage is appropriate, must be maintained to ensure data accuracy.

     The FEC does not have an integrated financial management system. Its general ledger and
     core financial management system are housed in PeopleSoft (PS). However, significant
     financial activity, such as Obligations, Revenue, Accounts Receivable, Property, Plant and
     Equipment (PPE) and payroll transactions, originate outside of PS. Of these transactions,
     only the Payroll activity processed through the National Finance Center’s (NFC) payroll
     system is automatically interfaced with the FEC’s core financial system. Obligations,
     Revenue, Account Receivable and Property transactions are recorded in subsidiary
     schedules maintained in multiple excel spreadsheets and then manually posted to the
     general ledger. These spreadsheets support the flow of transactions throughout the year.

     As a result of a lack of an integrated system, FEC goes through a process of compiling
     financial data in separate spreadsheets in a complex and time-consuming process to
     generate the financial statements. Although FEC reviews these spreadsheets, the risks of




                                           Page 5 of 20
error increase due to the inherent risk and limitations of a spreadsheet based application in
an agency’s financial management system. Some of these risks include:
•	 Substantial manual intervention is necessary, thereby increasing the risk of human error
    not being detected.
•	 Difficulty in tracking changes made to spreadsheets, including formula changes,
    preventing an adequate audit trail.
•	 Difficulty in verifying change controls and error correction changes made.
•	 Unique, new or non-recurring transactions are difficult to incorporate.
•	 Difficulty in performing automatic checks and balances on the transactions in the
    spreadsheets.
•	 Delay in recording transactions in the general ledger.
•	 Increase in the use of journal vouchers as a means for posting transactions to the
    general ledger.
•	 Substantial resources are spent processing transactions resulting in fewer resources for
    financial analysis and reporting.

These risks for errors were substantiated through our audit testing that identified the
following control deficiencies:
•	 Accounting entries posted to the general ledger were not always sufficiently
    documented or documentation to support the entries was not always properly
    maintained.
•	 Accrued expenses reported on the June 30, 2007 financial statements were misstated
    due to a posting error.
•	 The change in gross accounts receivable transactions were not recorded in the interim
    statements of custodial activity (March 2007 and June 2007).
•	 Multiple budgetary accounting related issues occurred resulting in:
    o	 The Recoveries of Prior Year Obligations and Obligations Incurred line items of the
        June 30, 2007 and September 30, 2007 draft financial statements being misstated.
        The reconciliation between the fourth quarter SF-133 and Statement of Budgetary
        Resources (SBR) as of September 30, 2007 was performed using incorrect SF-133
        data. Accordingly, the reconciliation did not reveal significant adjustments needed
        to the SBR and related financial statements, including a routine year-end adjusting
        entry of cancelling the 2002 fund.
    o	 FEC has not established the posting logic prescribed by Treasury for recording
        budget authority received under a continuing resolution. Furthermore, the FEC did
        not record apportionments in accordance will OMB Circular No. A-11,
        Preparation, Submission and Execution of the Budget. Specifically, FEC recorded
        the entire requested appropriation of $54 million as budget authority in February
        2007 even though the entire budget authority did not become available until April
        2007. The incorrect entries increased the risk that the system’s fund control may not
        have been effective, increasing the possibility that funds could have been
        obligated/expended in a manner that could have caused a violation of the Anti-
        Deficiency Act.
•	 FEC’s obligating documents contained errors or were inconsistent with supporting
    documentation; thereby increasing the risk for disbursements to be applied to the



                                     Page 6 of 20
   incorrect appropriation account or obligation. Specifically, we noted 2 out of 45
   disbursements that were applied to the incorrect appropriation account.
•	 FEC did not prepare and submit to OMB an analysis of significant financial statement
   line item fluctuations between March 31, 2006 and March 31, 2007. Moreover, our
   review of the analyses performed in subsequent reporting quarters showed that the
   analyses were not performed timely and/or were not complete.
•	 FEC did not complete the Statement of Budgetary Resources (SBR) reconciliation to
   SF-133 Report on Budget Execution and Budgetary Resources for the quarters ending
   December 31, 2006, March 31, 2007 and June 30, 2007 as required by OMB Circular
   A-136.

FEC is aware of these risks and the need for an integrated financial management system.
Accordingly, they plan to migrate a significant portion of their accounting function to the
General Services Administration (GSA) during fiscal year 2008. In preparation for the
migration, FEC is working with GSA to determine the feasibility of linking external
systems not yet integrated to PeopleSoft.

Recommendations:

1.	 Assess the extent of financial management system integration needed for existing
    systems while outsourcing the accounting operations to a third party service provider.

2.	 Implement control activities to compensate for the lack of an integrated financial
    management system and to ensure that accounting transactions are recorded correctly,
    timely, reviewed, and with adequate supporting documentation. Some of these control
    activities should include, but not limited to:
    •	 Improving preparation and review of procurement documents, including purchase
        requests, purchase orders/contracts, and related supporting documentation.
    •	 Improving analytical and quality control review of journal vouchers, reconciliations
        and the financial statements, including interim financial statement.
    •	 Implementing proper and timely cut-off controls for processing transactions and in
        preparing the financial statements to allow for management’s timely analysis of
        financial data and for audit purposes.
    •	 Establish a timeline for timely receipt of completed accounts receivable schedules
        by the finance office from the program offices.

3.	 Ensure that the general ledger setup and posting model definitions are in compliance
    with the latest transaction posting consistent with USSGL guidance and policies for
    recording and classifying transactions.

4.	 Provide employee training on procurement, appropriation law, budget execution, and
    financial reporting requirements, as applicable, to ensure financial reporting and fund
    control policies are consistently and accurately executed.

5.	 Ensure that FEC complies with regulatory agencies’ reporting requirements.



                                    Page 7 of 20
      Management Response:

      Management generally concurs with the finding and recommendations. FEC management
      is committed to resolving the issues noted and has begun to address the recommendations.
      For example, FEC has entered into an agreement with GSA, an OMB-certified Line of
      Business provider, for financial services. FEC management has also begun to identify
      training opportunities for its staff to enhance awareness of sound financial management
      practices. FEC management will develop a corrective action plan addressing issues
      identified.

SIGNIFICANT DEFICIENCY

II.   Information Technology (IT) (Modified Repeat Finding)

      A. Commission-Wide Security Administration

         An entity-wide security program should be in place to establish a framework and
         continuing cycle of activity to manage security risk, develop security policies, assign
         responsibilities, and monitor the adequacy of computer security related controls.
         Without a well-designed program, security controls may be inadequate; responsibilities
         may be unclear, misunderstood, and improperly implemented; and controls may be
         inconsistently applied. Such conditions may lead to insufficient protection of sensitive
         or critical resources and disproportionately high expenditures for controls over low-risk
         resources.

         During our Fiscal Year 2007 review of FEC’s security program, we noted that FEC
         made progress in addressing prior years’ findings, notably a contract was recently
         awarded to conduct a risk assessment of FEC’s major applications and general support
         systems. The information obtained from this risk assessment will be used to adjust and
         fully implement its information classification, certification and accreditation policies.

         However, at the time of this review, FEC’s existing security program revealed
         weaknesses in controls that expose the FEC’s financial management systems and data
         to unauthorized access and/or modification. Security weaknesses noted included:
         •	 Risk assessments have not been performed as part of FEC’s overall strategy to
             mitigate risks associated with its IT environment. (Repeat Finding)
         •	 FEC has not fully implemented a framework of policies and standards to mitigate
             risks associated with the management of its information resources. Although FEC
             has implemented the majority of its information security policies, it has not fully
             implemented all of the related procedures and standards. FEC has not finalized and
             implemented an information classification policy, as well as its certification and
             accreditation policy. (Repeat Finding)
         •	 FEC has created security plans for all of its major applications and mission critical
             general support systems. However, these security plans are not consistent with best
             practices “Risk Management Cycle”, as they are not based on an assessment of the
             risks to FEC systems. (Repeat Finding)


                                          Page 8 of 20
     •	 Major applications and mission critical general support systems have not been
        certified and accredited to ensure that they are operating according to FEC’s
        security requirements. (Repeat Finding).
     •	 FEC could not provide evidence to show that background investigations were
        performed timely for 3 out of the 10 newly hired employees that we sampled (30%).
        (New Finding).

 Recommendations:

 6.	 Perform risk assessments, as part of FEC’s overall strategy to mitigate risks associated
     with its IT environment.

 7.	 Finalize and implement FEC’s information classification policy and certification and
     accreditation policy along with any accompanying standards.

 8.	 Incorporate the results of risk assessments into FEC security plans.

 9.	 Certify and accredit all major applications and mission critical general support systems.

 10. Refine procedures to ensure that all newly hired employees undergo the appropriate
     background investigations commensurate with the risk level of their position. FEC
     should also ensure these investigations are initiated within a reasonable time of
     employment start date.

 Management Response:

 FEC agrees with the majority of elements within this finding and believes that conducting a
 comprehensive risk assessment is a prudent course of action and consistent with its Risk
 Management Policy. To that end, FEC has re-issued a previous “Request for Proposal”
 (RFP). The contract was recently awarded to conduct a risk assessment of FEC’s major
 applications and general support systems. The information obtained from this risk
 assessment will be utilized to adjust and fully implement its information classification, and
 certification and accreditation policies. The data sensitivity and criticality information
 obtained will be incorporated into the appropriate FEC system security plans. This risk
 assessment contract deliverables include a risk remediation plan and strategy. This
 remediation plan will be incorporated into the overall ITD Corrective Action Plan (CAP).

 The modified system security plans, risk assessment and the resulting risk remediation plan
 will be included as major components of the certification and accreditation package for
 senior management to analyze in its decision to provide either an Authorization To Operate
 (ATO) or an Interim Authorization To Operate (IATO).

B.   Disaster Recovery and Continuity of Operations

     Losing the capability to process and protect information maintained on FEC’s computer
     systems can significantly impact FEC’s ability to accomplish its mission. The purpose


                                      Page 9 of 20
   of disaster recovery and continuity of operations controls is to ensure that, when
   unexpected events occur, critical operations continue without interruption or critical
   operations are promptly resumed.

   To achieve this objective, FEC should have procedures in place to protect information
   resources and minimize the risk of unplanned interruptions and a plan to recover critical
   operations should interruptions occur. These plans should consider activities performed
   at FEC’s general support facilities (e.g. FEC’s local area network, wide area network,
   and telecommunications facilities), as well as the activities performed by users of
   specific applications. To determine whether the disaster recovery plans will work as
   intended, FEC should establish and periodically test the capability to perform its
   functions in disaster simulation exercises.

   Our review of the service continuity controls identified weaknesses that could affect
   FEC’s ability to respond to a disruption in business operations after a disaster or other
   interruption. Details of the matter are as follows:

   •	 FEC has not performed a business impact analysis (BIA) to formally identify and
      prioritize all critical data and operations on its networks and the resources needed to
      recover them if there was a major interruption or disaster. In addition, FEC has not
      established emergency processing priorities that will help manage disaster situations
      more effectively for the network. (Repeat Finding)
   •	 FEC has not established an alternate processing site for its operations in the event of
      a disaster. (Repeat Finding)
   •	 FEC’s contingency plan is not comprehensive, as it does not include steps for
      recovering all FEC’s major applications and mission critical general support
      systems. Additionally, the plan does not prioritize resources or set a timeframe for
      recovery. (Repeat Finding)
   •	 FEC has not developed a continuity of operations plan (COOP) to support the
      continuation of its core mission in the event of a disaster that renders FEC’s
      facilities unusable. (Repeat Finding)

Recommendations:

11. Perform a BIA to formally identify and prioritize all critical data and operations on
    FEC’s networks and the resources needed to recover them if there is a major
    interruption or disaster.

12. Establish an alternate processing site and incorporate the results of the BIA into the
    contingency plan.

13. Develop a comprehensive contingency plan that incorporates the results of the BIA and
    includes the procedures and resources necessary to restore FEC systems in the event of
    a disaster. Ensure emergency processing priorities are established to assist in managing
    disaster situations, and ensure once developed, the plan is tested annually and updated
    based on the results of these tests.


                                    Page 10 of 20
 14. Develop a COOP that addresses measures and procedures to follow in the event of a
     long-term interruption.

 Management Response:

 FEC agrees that a formal BIA would be useful and recently awarded a contract to develop
 a comprehensive disaster recovery plan. A component of this contract is to assist FEC in
 formally identifying and prioritizing all critical data and operations on its networks and the
 resources needed to recover them in the event of a disaster. Determine gaps in current
 plans and strategies to close the identified gaps on a priority basis (i.e. risk, value derived,
 cost, time). The vender will then assist FEC with utilizing the data gleamed from this
 analysis to validate (and/or modify) its already established emergency processing
 priorities. FEC will ensure that all emergency processing priorities are prominently
 indicated in the resulting disaster recovery plan. The proposed plan will also include a
 testing plan and maintenance mechanism to ensure that the plan stays current.

 Two additional components of this contract are to identify and prioritize those resources
 needed to develop a COOP and define the requirements needed to establish an alternate
 processing site.

C.   Logical Access, System Software and Change Management Controls

     Achieving an adequate level of information protection is highly dependent upon
     maintaining consistently effective access controls, system software and configuration
     management controls. Access controls limit and monitor access to computer resources
     (i.e., data files, application programs, and computer-related facilities and equipment) to
     the extent necessary to provide reasonable assurance that these resources are protected
     against waste, loss, unauthorized modification, disclosure, or misappropriation. Access
     controls include logical controls, such as security software programs designed to
     prevent or detect unauthorized access to sensitive files. Similarly, system software
     controls limit and monitor access to powerful programs and sensitive files that control
     computer processing and secure the application and data supported by the system, while
     change and configuration controls ensure all programs and program modifications are
     properly authorized, tested, and approved, and that access to and distribution of
     programs is carefully controlled. Without proper controls, there is a risk that security
     features could be inadvertently or deliberately omitted or "turned off" or that processing
     irregularities or malicious code could be introduced.

     Our testing of internal controls identified weaknesses related to the information
     protection in FEC’s information systems environment. These include FEC’s midrange
     computer systems (e.g. servers) and applications. Weaknesses noted include the
     following:
     •	 The PeopleSoft application is currently running on an Oracle Release 8i Relational
         Database Management System that is no longer supported by the vendor.
     •	 Audit trail parameters for the Oracle database that supports the PeopleSoft
         application have not been set to ensure appropriate segregation of incompatible
         security responsibility and to provide necessary management oversight. Although


                                      Page 11 of 20
      ‘auditing’ is activated, the audit and archive logs are written to database tables and
      operating system logs respectively to which the database administrators (DBAs)
      have full access. This implies that the DBAs have the capability to purge these logs
      and remove possible evidence of database activity.
   •	 FEC does not maintain documentation supporting timely approval and testing of
      patches and software upgrades prior to being moved into production.
   •	 The PeopleSoft application does not have built-in functionality to enforce FEC’s
      password policies. Furthermore, the mitigating controls implemented by FEC do
      not address the following PeopleSoft weaknesses:
      o	 PeopleSoft does not have an account lockout policy.
      o	 PeopleSoft does not prevent users from using previous passwords.
      o	 PeopleSoft does not have the ability to enforce strong password requirements.
   •	 FEC does not properly monitor access to its networks, systems and physical facility:
      o	 Six out of 10 separated employees still have active network accounts.
      o	 Three out of 10 LAN accounts have not logged on for more than 90 days.
      o	 One out of 10 LAN accounts has not changed its password in 180 days.
      o	 Two out of 10 LAN accounts have not logged on for more than 90 days and
          have not changed their passwords in 180 days.
      o	 Access documentation is not maintained for system administrators and database
          administrators. Additionally, administrator privileges are not periodically
          reviewed for appropriateness. FEC’s current policy is to grant employees
          access based on their positions.          Only employees hired to perform
          administrative functions are granted administrative access.

Recommendations:

15. Transfer processing to a service provider or update existing platform to vendor-
    supported versions/releases.

Management Response:

FEC has evaluated four approved agencies for a Line of Business (LOB) solution and
selected the General Services Administration (GSA) as its service provider. FEC has
finalized its decision regarding moving its financial, human resources, travel services and
procurement activities to GSA’s LOB by signing an Interagency Agreement. GSA’s LOB
solution will replace the FEC PeopleSoft application thus eliminating the discrepancies
described in this finding.

16. Write audit trails related to DBA activity to Operating Systems logs and limit DBA’s
    access to these logs.

Management Response:

Although the FEC has a process in place to trace any and all (attempted and successful)
transactions which may occurs in its Oracle databases, it concurs that implementing
additional separation of duty controls will assist in eliminating the possibility that a


                                   Page 12 of 20
database administrator could purge auditing logs to hide inappropriate actions. To this
end, the FEC recently implemented a process whereby database administrators have been
restricted to read only access to Oracle audit log files.

17. Maintain documentation to support the testing and approval of system software
    changes.

Management Response:

Although FEC believes its recently issued patch management standard is sufficient, the
process of maintaining supporting documentation to support the standard can be improved.
In an effort to improve this process, the FEC will issue patch management standard
reminders to its technical personnel. In addition, the FEC will add reviewing patch
management supporting documentation to its Security Review Policy to ensure that
supporting documentation is properly maintained.

18. Develop additional mitigating controls to ensure that PeopleSoft passwords are in
    agreement with FEC policy or ensure that if PeopleSoft processing is outsourced, the
    third party maintains password controls that comply with FEC password policies.

Management Response:

Although FEC has developed compensating controls to reduce the risk associated with this
finding, it concurs that the PeopleSoft application does not meet the requirements specified
in FEC’s Password Policy. With this in mind and understanding the limitations of the
current version of PeopleSoft utilized at FEC, the Password Policy is being amended to
allow an exemption for the PeopleSoft application.

In addition, the FEC selection of GSA’s LOB financial solution will replace the FEC
PeopleSoft application thus eliminating the discrepancies described in this finding.

19. Promptly terminate access to FEC resources for separated employees. P  	 rocedures
    should be documented and implemented to coordinate separations between Human
    Resources and IT management to ensure user accounts are immediately disabled upon
    termination.

20. Utilize access request forms that identify the user’s access level to document user
    access rights to all FEC systems and facilities. Additionally, FEC should periodically
    review and recertify user access to ensure current access is commensurate with job
    responsibilities.

Management Response:

Although the FEC has a documented process in place to terminate FEC resources for
separated employees, it concurs that this process can be improved. To this end, the FEC
recently awarded a contract to develop and implement an automated HR New Personnel
Workflow Process.


                                    Page 13 of 20
      The New Personnel Workflow Process will include full time employees, interns, and
     contractors and eliminate the discrepancies described in this finding. The new process will
     track staff from the start of their employment at FEC to exit and allow managers to request
     and document any changes in network and application access. This new process will
     enable a higher degree of coordination between HR and ITD to ensure that user accounts
     are disabled upon exiting per FEC policy. The new process will retain all historical
     information regarding account creation, changes to access rights, system resources, and
     termination information regarding a particular account.

OTHER MATTER

OMB Bulletin No. 07-04 requires that the auditor’s report on internal control “identify those
material weaknesses disclosed by the audit that were not reported in the reporting entity’s
Federal Managers’ Financial Integrity Act (FMFIA) report.” The FEC’s schedule of material
weaknesses and non-conformances included in the Performance and Accountability Report did
not identify the material weakness noted in this report. We do not believe, however, that failure
to report the material weaknesses in FMFIA constitutes a separate reportable condition or a
material weakness because different criteria are used by management and the auditors in
determining material weaknesses.

STATUS OF PRIOR YEAR CONDITIONS

We have reviewed the status of the FEC’s corrective actions with respect to the findings and
recommendations from the prior year’s report on internal controls. We have attached Appendix
A to our report that presents the status of prior year findings and recommendations.

                            ********************************

FEC's response to the material weakness and significant deficiency identified in our audit is
presented within the body of our report. We did not audit the FEC's response and, accordingly,
we express no opinion on it.

In addition to the material weakness and significant deficiency described above, we noted certain
matters involving internal control and its operation that we reported to the management of the
FEC in a separate letter dated November 13, 2007.

This report is intended solely for the information and use of the management of the FEC, the
FEC Office of Inspector General, Government Accountability Office, the OMB, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




Calverton, Maryland 

November 13, 2007 



                                         Page 14 of 20
                                APPENDIX A 

                      FEDERAL ELECTION COMMISSION 

           STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS 

                              September 30, 2007 



    PY
            Condition/Audit                                                                          Current
    Rec.                                              Recommendation
                Area                                                                                 Status 1
    No.
                                            Material Weaknesses
I. Program Cost Allocation
   1     Cost Allocation      Revise the account lockout threshold in TRS to five                 Closed
         Methodology          invalid attempts.
   2     Cost Allocation      Establish written policies and procedures to ensure                 Closed
         Methodology          that employees enter their time in the cost system
                              timely and properly and the results are supported by
                              source data which is reviewed and approved by
                              management
    3     Cost Allocation     Ensure correct and consistent application of the cost               Closed
          Methodology         allocation process in accordance with the cost system
                              user manual and conceptual design document.
    4     Cost Allocation     Ensure errors in TRS causing the system to allocate                 Closed
          Methodology         hours for the Information Division to the wrong
                              program are resolved.
II. General Property and Equipment
    5     Property, Plant and Improve analytical and quality control review of                    Closed
          Equipment           subsidiary schedules, journal vouchers and property
                              reconciliation to ensure material errors and differences
                              are identified and resolved timely.
    6     Property, Plant     Use correct USSGL.                                                  Closed
          and Equipment
    7     Property, Plant     Develop a mechanism for reconciling individual                      Closed
          and Equipment       property items in the property system to the bulk
                              purchases recorded in the general ledger to ensure
                              completeness of the property system records. Also,
                              ensure that the property management system has
                              complete information, such as bar code identification,
                              serial number and location of the asset.
    8     Property, Plant     Clearly document physical inventory procedures,                     Updated –
          and Equipment       results of the physical inventory, and the                          reported in
                              reconciliation performed. Maintain the documentation                current year
                              for audit trail and management review purposes.                     management
                                                                                                  letter



1
 Updated recommendation can be considered closed since a new recommendation has been proposed in current
year’s Auditor’s Report on Internal Control or management letter.


                                              Page 15 of 20
                              APPENDIX A 

                    FEDERAL ELECTION COMMISSION 

         STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS 

                            September 30, 2007 


 PY
          Condition/Audit                                                                Current
 Rec.                                          Recommendation
              Area                                                                       Status 1
 No.
  9      Property, Plant     Establish a standard process, mechanism or policies to   Updated –
         and Equipment       ensure [offices and divisions] notify the Finance        reported in
                             Office of the acquisition and disposition of property    current year
                             assets.                                                  management
                                                                                      letter.
  10     Property, Plant     Perform a monthly analysis of property as part of the    Closed
         and Equipment       monthly analysis of financial activities.
                                    Reportable Conditions
III. Information Technology
   11     Entity-Wide       Complete the documentation approval and                    Open –
          Security          implementation of an entity-wide security program          reported in
                            plan.                                                      current year
                                                                                       significant
                                                                                       deficiency
  12     Entity-Wide         Finalize and implement FEC’s information                  Open –
         Security            classification policy and certification and accreditation reported in
                             policy along with any accompanying standards.             current year
                                                                                       significant
                                                                                       deficiency
  13     Entity-Wide         Perform risk assessments, as part of FEC’s overall        Open –
         Security            strategy to mitigate risks associated with its IT         reported in
                             environment.                                              current year
                                                                                       significant
                                                                                       deficiency

  14     Entity-Wide         Incorporate the results of the risk assessments into     Open –
         Security            FEC’s security plans.                                    reported in
                                                                                      current year
                                                                                      significant
                                                                                      deficiency
  15     Entity-Wide         Classify information resources in accordance with the    Open –
         Security            risk assessments.                                        reported in
                                                                                      current year
                                                                                      significant
                                                                                      deficiency
  16     Entity-Wide         Utilize corrective action plans for all reviews of       Closed
         Security            security controls whether performed internally or by a
                             third party.




                                        Page 16 of 20
                            APPENDIX A 

                  FEDERAL ELECTION COMMISSION 

       STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS 

                          September 30, 2007 


PY
       Condition/Audit                                                              Current
Rec.                                       Recommendation
           Area                                                                     Status 1
No.
 17    Entity-Wide       Ensure that corrective action plans identify the task to Closed
       Security          be completed in addition to identifying the resources
                         required to accomplish the elements of the plan, any
                         milestones in meeting the tasks, and scheduled
                         completion dates for the milestones.
18     Entity-Wide       Certify and accredit all major applications and mission Open –
       Security          critical general support systems.                        reported in
                                                                                  current year
                                                                                  significant
                                                                                  deficiency
19     Contingency       Perform a BIA to formally identify and prioritize all    Open –
       Planning          critical data and operations on FEC’s networks and the reported in
                         resources needed to recover them if there is a major     current year
                         interruption or disaster.                                significant
                                                                                  deficiency
20     Contingency       Ensure that emergency processing priorities are          Open –
       Planning          established to assist in managing disaster situations    reported in
                         more effectively for the network and include business current year
                         owners in the discussion to determine how much           significant
                         backup data is needed on-hand to minimize the impact deficiency
                         of a disaster.
21     Contingency       Establish an alternative processing site for FEC’s       Open –
       Planning          operations in the event of a disaster and ensure that an reported in
                         operational mechanism exists to update the disclosure current year
                         database in the event that FEC’s database is             significant
                         unavailable to replicate the disclosure database         deficiency
                         resident at the off-site location.
22     Contingency       Develop and document a comprehensive COOP of         Open –
       Planning          FEC’s data centers, networks, and telecommunication  reported in
                         facilities.                                          current year
                                                                              significant
                                                                              deficiency
23     Contingency       Develop a COOP to support the continuation of FEC’s Open –
       Planning          core mission in the event of a disaster that renders reported in
                         FEC’s facilities unusable.                           current year
                                                                              significant
                                                                              deficiency




                                   Page 17 of 20
                            APPENDIX A 

                  FEDERAL ELECTION COMMISSION 

       STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS 

                          September 30, 2007 


PY
       Condition/Audit                                                                Current
Rec.                                       Recommendation
           Area                                                                       Status 1
No.
 24    Controls to       Finalize and implement FEC’s process to manually           Closed
       Protect           review logs of users using budgetary overrides where
       Information       the reviewer is an individual who does not have access
                         to utilize the overrides.
25     Controls to       Develop mitigating controls to ensure that PeopleSoft      Open –
       Protect           passwords are in agreement with FEC’s policy or            reported in
       Information       ensure that when PeopleSoft processing is outsourced,      current year
                         the third-party maintains password controls that           significant
                         comply with FEC’s password policies.                       deficiency

26     Controls to       Use access request forms that identify the user’s          Closed
       Protect           access level to document user access rights to all
       Information       FEC’s systems. Additionally, FEC should
                         periodically review the appropriateness of access
                         granted and recertify user access rights.
27     Controls to       Investigate to determine a baseline level of auditing      Closed
       Protect           that can be performed without causing a detrimental
       Information       impact to the performance of the Oracle databases and
                         the applications that they support.
28     Controls to       Periodically review data center access and remove          Closed
       Protect           unnecessary access rights.
       Information
29     Software          Implement formal policies and procedures for               Closed
       Development and   managing system software changes.
       Change Controls
30     Software          Maintain documentation to support the testing and          Open –
       Development and   approval of system software changes.                       reported in
       Change Controls                                                              current year
                                                                                    significant
                                                                                    deficiency
31     Software          Complete the migration of financial processing to a        Open – FEC
       Development and   third-party service provider and verify that the service   has plans to
       Change Controls   provider is utilizing vendor supported system software     migrate to a
                         version.                                                   third party
                                                                                    service
                                                                                    provider in
                                                                                    FY 2008.




                                    Page 18 of 20
                               APPENDIX A 

                     FEDERAL ELECTION COMMISSION 

          STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS 

                             September 30, 2007 


  PY
           Condition/Audit                                                             Current
 Rec.                                         Recommendation
                 Area                                                                  Status 1
  No.
IV. Integrated Financial Management System
  32      Integrated        Evaluate the extent of systems integration needed for    Updated –
          Financial         existing systems when considering the outsourcing of     reported in
          Management        the FEC’s accounting services to a shared service        current year
          System            provider.                                                material
                                                                                     weakness
V. Administrative Fines, Civil Penalties and Miscellaneous Receipts
   33    Administrative      Implement policies and procedures for reviewing the     Closed
         Fines, Civil        accounts receivable schedules for reasonableness and
         Penalties and       accuracy prior to recording related account
         Miscellaneous       transactions in the general ledger.
         Receipts
   34    Administrative      Formalize policies and procedures for performing        Updated –
         Fines, Civil        accounts receivable reconciliations. While developing   reported in
         Penalties and       these procedures, the FEC should consider               current year
         Miscellaneous       establishing a timeline for when the reconciliations    material
         Receipts            should be finalized by the program offices and          weakness
                             forwarded to the Finance Office.
   35    Administrative      Document all the methodologies applied in calculating   Updated –
         Fines, Civil        allowances for uncollectible accounts. Periodically     reported in
         Penalties and       review the methodologies against actual procedures      current year
         Miscellaneous       performed and revise them as necessary.                 management
         Receipts                                                                    letter
VI. Controls Over Procurement and Disbursement Transactions
   36    Procurement and Issue formal guidance for performing corrective action      Closed
         Disbursement        when negative obligation balances occur. Procedures
                             should describe the conditions when corrective action
                             is needed, corrective actions to perform and the
                             individuals responsible for resolving the error. The
                             timely response and clear communication on
                             corrective action should also be included in the
                             procedures.
   37    Procurement and Ensure documentation related to procurement and             Updated –
         Disbursement        disbursement actions are properly approved and          Reported in
                             supported. Procurement policies and procedures          current year
                             should be enhanced to document, completely and          management
                             clearly, operating procedures for the procurement       letter
                             cycle and should include procedures for documenting
                             justification when exceptions are made to established
                             procedures.



                                        Page 19 of 20
                            APPENDIX A 

                  FEDERAL ELECTION COMMISSION 

       STATUS OF PRIOR YEAR FINDINGS AND RECOMMENDATIONS 

                          September 30, 2007 


PY
       Condition/Audit                                                            Current
Rec.                                      Recommendation
           Area                                                                   Status 1
No.
 38    Procurement and   Ensure reconciliations are consistently performed,     Closed
       Disbursement      reviewed and approved in a timely manner.
39     Audit Follow-up   Formalized the remediation process related to audit    Updated –
                         findings and recommendations that is consistent with   reported in
                         OMB Circular A-50 guidelines.                          current year
                                                                                management
                                                                                letter




                                   Page 20 of 20
